AFFIDAVIT OF SERVICE
SUPREME COURT OF THE UNITED STATES
No. 20•X

JEFFREY F. KRATZ,
Petitioner,
v.
NATIONSTAR MORTGAGE LLC,
Respondent.
•X

STATE OF NEW YORK

)

COUNTY OF NEW YORK )
I, Melissa Pickett, being duly sworn according to law and being over the age of 18, .
upon my oath depose and say that:
I am retained by Counsel of Record for Petitioner.
That on the 30th day of October, 2020,1 served the within Petition for a Writ of
Certiorari in the above-captioned matter upon:
Kelli A. Lee
McGuireWoods LLP
260 Forbes Ave, Suite 1800
Tower 2-60
Pittsburg, PA 15222
klee@mcguirewoods.com
Counselfor Nationstar Mortgage LLC
by depositing one copy of same, addressed to each individual respectively, and enclosed
in a post-paid, properly addressed wrapper, in an official depository maintained by the
United States Postal Service, via Express Mail.
That on the same date as above, I sent to this Court eleven copies and 1 un-bound
copy of the within Petition for a Writ of Certiorari and three hundred dollar filing fee
check through the United States Postal Service by Express Mail, postage prepaid.

All parties required to be served have been served.
I declare under penalty of perjury that the foregoing is true and correct.
Executed on this 30th day of October, 2020.

0A—
Melissa Pickett
Sworn to and subscribed before me this 30th day of October, 2020.

MARIA MAISONET
Notary Public State of New York
No. 01MA6204360
Qualified in Queens County
Commission Expires Apr. 20, 2021

#298202

0

COUNSEL PRESS

(800) 274-3321 • (800) 359-6859
www.counseIpress.com

